<html>
<title> - [H.A.S.C. No. 115-84]</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 115-84]
                             ____________
                             
                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

                      DEPARTMENT OF THE AIR FORCE

   FISCAL YEAR 2019 BUDGET REQUEST FOR SEAPOWER AND PROJECTION FORCES

                               __________

                              HEARING HELD
                             MARCH 14, 2018


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                          _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
29-462                  WASHINGTON : 2019      

                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
DUNCAN HUNTER, California            DONALD NORCROSS, New Jersey
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
STEPHEN KNIGHT, California           A. DONALD McEACHIN, Virginia
RALPH LEE ABRAHAM, Louisiana
                Bruce Johnson, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Megan Handal, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     3
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     1

                               WITNESSES

Roper, Hon. William B., Jr., Assistant Secretary of the Air Force 
  for Acquisition, Headquarters U.S. Air Force; Lt Gen Jerry D. 
  Harris, Jr., USAF, Deputy Chief of Staff for Strategic Plans 
  and Programs, Headquarters U.S. Air Force; and Lt Gen Mark C. 
  Nowland, USAF, Deputy Chief of Staff for Operations, Plans and 
  Requirements, Headquarters U.S. Air Force......................     4

                                APPENDIX

Prepared Statements:

    Roper, Hon. William B., Jr., joint with Lt Gen Jerry D. 
      Harris, Jr., and Lt Gen Mark C. Nowland....................    33
    Courtney, Hon. Joe...........................................    31
    Wittman, Hon. Robert J.......................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Garamendi................................................    53
    Mrs. Hartzler................................................    53
    Mr. Norcross.................................................    53

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    DEPARTMENT OF THE AIR FORCE FISCAL YEAR 2019 BUDGET REQUEST FOR 
                     SEAPOWER AND PROJECTION FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                         Washington, DC, Wednesday, March 14, 2018.
    The subcommittee met, pursuant to notice, at 2:00 p.m. in 
room 2212, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. The House Armed Services Subcommittee on 
Seapower and Projection Forces. Today the subcommittee convenes 
to receive testimony on the fiscal year 2019 Air Force budget 
request regarding bomber, tanker, and airlift acquisition 
programs.
    The distinguished panel of Air Force leaders testifying 
before us today are the Honorable Dr. William Roper, Assistant 
Secretary of the Air Force for Acquisition; Lieutenant General 
Jerry D. Harris, U.S. Air Force Deputy Chief of Staff for 
Strategic Plans and Programs; and Lieutenant General Mark C. 
Nowland, U.S. Air Force Deputy Chief of Staff for Operations, 
Plans, and Requirements.
    Gentlemen, thank you so much for being here with us today.
    The fiscal year 2019 budget request for projection forces 
continues to modernize and recapitalize critical Air Force 
weapons systems. I am pleased to see increasing investments in 
the B-21 Raider bomber, and the high-visibility VC-25B 
Presidential Aircraft Recapitalization effort.
    Also, this budget proposes funding to continue modernizing 
the legacy Guard and Reserve C-130H tactical airlift fleet.
    Throughout the past year, in testimony to Congress, Air 
Force senior leadership indicated that the Air Force is one of 
the busiest, smallest, and oldest, and least ready fleets in 
our history. It is my firm conviction, in light of the threats 
posed by China, Russia, North Korea, and Iran, that we must 
provide the Air Force the resources it needs to fully support 
critical recapitalization programs.
    With regard to bombers, the Air Force outlined its plan for 
its bomber fleet in the fiscal year 2019 budget submission. 
Under this plan, the B-52, the oldest bomber in the fleet, will 
remain on duty for the next few decades, while the newest B-2 
and B-1 bombers will be retired.
    As I have said, the B-52 is the workhorse of the fleet, and 
we understand too what it is capable of doing. And doing some 
service life extension on it will make it an aircraft that will 
take us many years into the future.
    I am interested to hear from the witnesses today about 
factors being used to make the bomber vector decisions in 
retiring the B-1 and B-2.
    As for the B-21, I fully support this critical program and 
am pleased to see that we are moving forward with the project.
    The B-21 will be needed for projecting power over long 
distances into denied environments in the future of warfare as 
it faces us in the era of great power competition. Timely 
delivery of the B-21 is necessary to ensure our national 
security. And while I believe that Northrop Grumman is doing a 
very good job at managing the risk across the entire portfolio, 
I look forward to assessing in better detail the B-21 program 
to ensure sufficient progress on both design and construction.
    With regard to tankers, I am concerned that continued 
forecast delays for KC-46A deliveries, coupled with the Air 
Force's plan to begin retiring 47 KC-10A aircraft across the 
FYDP [Future Years Defense Program] beginning in fiscal year 
2019, may add unacceptable risk to combatant commanders' 
ability to execute war plans.
    In General McDew's testimony to my subcommittee last week 
he indicated ``we already know the convergence of an aging air 
refueling fleet with protracted KC-46 production puts the joint 
force's ability to effectively execute war plans at risk.'' He 
went on to say ``it is clear, the tanker fleet's end strength 
will require careful synchronization between KC-10 and KC-135 
retirements, and KC-46 production and delivery to sustained 
current force projection capabilities.''
    I look forward to hearing your thoughts on this program and 
how the Air Force intends to manage the transition from KC-10A 
and KC-135 aircraft to the KC-46A. Furthermore, I look forward 
to hearing why Air Force believes robust investment into KC-46A 
is warranted considering continued delays in the program.
    I am encouraged with the Air Force's sustained effort to 
ensure that its mobility aircraft will comply with the FAA-
mandated [Federal Aviation Administration] NextGen [Next 
Generation] air traffic management standards by July 1, 2020, 
with the exception of a few aircraft that will be undergoing 
depot modifications. But I am becoming increasingly concerned 
about other military equities that may be impacted as we move 
to support the FAA mandate.
    While I support the migration of our tankers and airlift 
assets to NextGen, I do worry about the lack of security 
protections associated with the bomber and fighter force 
structures. We need to carefully monitor this transition.
    While I believe that the Air Force's fiscal year 2019 
budget request continues to make up lost ground, I remain 
concerned about the Air Force's ability to fulfill combatant 
commander requirements given the shortfalls in strategic 
airlift, aerial refueling, and the increased risk posed by the 
complexities of managing the tanker and bomber transitions.
    In the words of the immortal air power theorist General 
Giulio Douhet, ``In order to assure an adequate national 
defense, it is necessary and sufficient to be in a position in 
case of war to conquer the command of air.'' Like Douhet, it is 
my firm conviction that we need a strong Air Force equipped 
with the most capable aircraft that enable our highly skilled 
and motivated airmen to defend our great Nation.
    Once again, I want to thank our witnesses for participating 
in our hearing this afternoon, and I look forward to discussing 
these important topics.
    With that, I turn to my good friend and colleague, the 
ranking member of our subcommittee, Joe Courtney.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 29.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman, and thank you to the 
witnesses for testifying today at the Seapower and Projection 
Forces Subcommittee.
    We are obviously here today on the projection part of our 
portfolio. And again, we welcome the opportunity to discuss 
with Air Force leadership the bomber, tanker, and airlift 
platforms that ensure that we can respond anywhere at any time 
around the world.
    The 2019 budget request for these programs reflects the 
challenging balancing act facing Air Force and the Congress. 
For instance, the budget continues significant investment in 
major replacement programs like the B-21 bomber and the KC-46 
tanker. At the same time, a large portion of the request also 
covers a range of modernization efforts aimed at keeping older 
legacy bombers and tankers operational and relevant for years 
to come.
    This is not an easy balance to maintain, and your input 
today will help our subcommittee evaluate whether we have--what 
we have right in this year's defense bill.
    With that in mind, I want to quickly highlight a few areas 
of focus.
    As I noted earlier, the 2019 budget continues significant 
and needed investment in the KC-46 tanker replacement. However, 
I remain concerned about additional delays in this high-
priority program. Just last week, the Air Force announced the 
delivery of the first operational tankers may not occur until 
next year. I hope our witnesses today will explain how the Air 
Force is working to address the program's schedule and the 
impact of delays on the rest of the tanker fleet.
    Another area of ongoing concern and bipartisan interest in 
our subcommittee is the modernization of our C-130H fleet. This 
subcommittee has led the way in moving upgrades like the 
Avionics Modernization Program, AMP, forward after years of 
delay. And I appreciate the Air Force's continued support for 
AMP in the 2019 budget.
    However, I am disappointed that the budget does not fund 
other needed upgrades like new high-efficiency propellers and 
engines for this fleet. I look forward to exploring this issue 
more in our session today.
    And lastly, I also hope that our witnesses will provide 
additional clarity into recent developments on the Air Force 
One replacement program. There have been very public and high-
level pronouncements about a deal to save $1 billion on the new 
aircraft. Unfortunately, to date very little detail has been 
provided to our subcommittee or the American public about this 
arrangement.
    At the same time, the Air Force is moving forward on costly 
sole-source contracts to sustain and upgrade the current 
Presidential aircraft. I believe our subcommittee deserves 
greater insight into what is happening with this program, as 
well as begin our work on this year's defense bill.
    I have additional remarks but, again, time is the enemy 
here with votes about to take place. So I am just going to ask 
those be submitted for the record.
    And again, thank you to the witnesses for being here today. 
We look forward to your testimony and questions.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 31.]
    Mr. Wittman. Without objection.
    Dr. Roper, we will go to you. I understand that you will be 
giving the opening statement for the panel, and we turn now to 
you.

STATEMENT OF HON. WILLIAM B. ROPER, JR., ASSISTANT SECRETARY OF 
THE AIR FORCE FOR ACQUISITION, HEADQUARTERS U.S. AIR FORCE; LT 
 GEN JERRY D. HARRIS, JR., DEPUTY CHIEF OF STAFF FOR STRATEGIC 
  PLANS AND PROGRAMS, HEADQUARTERS U.S. AIR FORCE; AND LT GEN 
 MARK C. NOWLAND, USAF, DEPUTY CHIEF OF STAFF FOR OPERATIONS, 
      PLANS AND REQUIREMENTS, HEADQUARTERS U.S. AIR FORCE

    Dr. Roper. Thank you, Chairman Wittman and Ranking Member 
Courtney and distinguished members of the subcommittee. We want 
to start by thanking you for the opportunity to be here, and 
for your support of U.S. Air Force, our airmen, and their 
families. It is much appreciated.
    General Harris, General Nowland, and I have submitted a 
joint statement that we would like to be entered into the 
record. And I will provide a few brief opening remarks so that 
we can turn our focus to your questions later on.
    Throughout our 70-year history in the Air Force, we have 
conceived, acquired, and operationalized some of the world's 
most high-tech systems. From jet engines to ICBMs 
[intercontinental ballistic missiles], to stealth, to 
satellite-guided bombs, to remotely piloted planes, and many 
things we cannot name, we have made science and technology the 
whetstone of the world's most lethal air force.
    But despite our current lethality, 27 years of continuous 
combat operations have done more than just take a toll on 
airmen and equipment. It has allowed the national security 
environment to change, while our time, talent, and treasure 
were otherwise engaged.
    I know the committee is well aware that many capabilities 
developed decades ago have been studied, copied, and, in many 
cases, exploited by adversaries. The new National Defense 
Strategy makes it clear we must pick up the gauntlet and 
modernize the force. We are committed to this task, and to 
doing it cost effectively.
    I know the subcommittee is also aware of the warfighting 
and deterrence advantages that unmatched bombers, tankers, and 
airlift bring to the joint force. This is an awesome portfolio 
of capabilities, giving commanders global options at the speed 
of need.
    Let me give you a few supporting facts. Last year our 
bombers flew 650 missions in the Indo-Pacific and European 
theaters, strengthening security and assuring allies and 
partners during troubling times. We transported and delivered 
nearly 1 million personnel, 738 million pounds of warfighting 
equipment and humanitarian supplies, and over 1 billion pounds 
of fuel in-flight.
    The military implication of these numbers speaks for 
itself. To maintain this advantage, the fiscal year 2019 budget 
submission is a balance between readiness and needed 
modernization. This is no easy task, being ready for today's 
war, while preparing for tomorrow's. But we look forward to 
sharing steps we are taking.
    We also applaud your recent efforts to lift the 
sequestration caps for fiscal year 2019 and fiscal year 2018. 
Stable and timely budgets devoid of continuing resolutions and 
budget caps are absolutely necessary to build, sustain, and 
operate the Air Force this country needs and deserves.
    Thank you again for your continued support of your Air 
Force, and we look forward to your questions today.
    [The joint prepared statement of Dr. Roper, General Harris, 
and General Nowland can be found in the Appendix on page 33.]
    Mr. Wittman. Thank you, Dr. Roper. I am going to yield. I 
will provide my questions a little bit later, I will yield to 
my colleague, Mr. Courtney.
    Mr. Courtney. Great. Thank you, Mr. Chairman. And again, I 
will be brief because I know we have a lot of members here.
    Again, I would like to just go back for a second to the C-
130H program, which--again, this subcommittee, over the last 
two or three NDAAs [National Defense Authorization Acts] has 
been very deeply involved, in terms of trying to balance all of 
the different stakeholders in terms of that and, again, on a 
very bipartisan basis.
    Again, just for the record, last year Air Force officials 
testified that the first part of the Avionics Modernization 
Program was on track to be in compliance with FAA and 
international airspace requirements before the 2020 deadline. I 
was just wondering, again, for the record, just want to confirm 
that we are still moving forward in terms of achieving that 
goal.
    General Harris. We are.
    Mr. Courtney. Thank you. Okay. The second part of AMP was 
to be focused on longer-term cockpit upgrades. And again, there 
is about $400 million in the budget to conduct research and 
development before beginning that procurement.
    Last week, Dr. Roper, you came over and testified, you 
know, about the fact that, you know, we, as part of acquisition 
reform, should be using available technology and open new 
opportunities for the Air Force to leverage commercial 
technology at commercial speed.
    I mean I am not sure how much you have had a chance to sort 
of, you know, dig into this program, but it does seem like the 
AMP 2 upgrade in the cockpits is a perfect example of a place 
where we could maybe accelerate that process, and probably save 
some money, as opposed to sort of what is in the budget here 
today. You know, we are talking about upgrades that, again, are 
happening in, you know, commercial areas, as well as, you know, 
other parts of the world.
    And I was wondering if you could sort of comment on that.
    Dr. Roper. Of course, Congressman. I think what you are 
seeing in the modernization efforts is we have got planes with 
good bones, but it is time to work on the innards, on the 
networking, on the enablers that allow them to be so potent.
    Whenever you are dealing with sensing technology or 
networking technology, you really are playing into commercial 
technologies that can be a large contributor. And so, it is 
going to be a major role for me in this position to make sure 
that we are adopting the best of breed from commercial tech. 
And I think these programs are no exception.
    I think the general caution--something we are going to have 
to learn across the Air Force--is how do we use commercial tech 
safely. We can't put people up in airplanes if there is a cyber 
vulnerability, or something that might be compromised on the 
battlefield. I don't think that is insurmountable. I don't 
think it should be cold water on the issue. It is just a 
different kind of design philosophy, to figure out how to use 
something that you didn't control during its whole life. And 
that is not just going to be part of the airlift or the bomber 
portfolio; I think that is going to be across the Air Force, 
including the space portfolio. So just general lessons to 
learn, sir.
    Mr. Courtney. Good. And, you know, as I think we discussed 
offline earlier, I mean, this subcommittee is very willing to 
embrace, you know, ways to create authorities, to promote more 
efficiencies and, you know, save speed, in terms of programs. I 
think this is one that you really should maybe put on the dance 
card, in terms of, you know, possibilities where you can 
achieve those goals that you articulated, again, last week.
    The last question I have is on KC-46. As I mentioned, you 
know, we are looking at another sort of delay that seems to be 
sort of causing--being caused by the testing part of the 
pipeline that is there. And I mean it seems like the production 
side of it is moving along, nonetheless.
    And I just wonder if you could sort of comment in terms of 
how we can--whether or not we can sort of get this centipede 
sort of moving along, rather than having a--sort of it bunched 
up, you know, after the planes are coming out of the factory.
    Dr. Roper. Yes, sir. I have been spending a lot of time on 
KC-46. And I share your concern. This is an important year for 
the program. And even though it is a fixed-price contract, and 
any of the delays and issues that we see are not things that 
the taxpayer is paying for, we are still taking time away from 
warfighters if we delay.
    The big thing on any program like this is you have got to 
be out testing. And so, the delays in getting FAA 
certifications, the supplemental certification and then the 
military certification, is a concern to me. Because having 
those certifications will allow us to do more aggressive flight 
testing. And if you have ever done an engineering program, 
stuff is going to go wrong, that is just the nature of the 
beast. You tackle that by testing early, putting your finger on 
problems, and being able to retire them.
    So the fact that there are issues in the program is less 
concerning to me. What will concern me during this year, if 
issues don't get retired quickly--so it is the speed at which 
they get retired that is going to be a key metric for me.
    If you step back from the program, though, there are a lot 
of requirements that have to be met. I think it is 738. We are 
about 30 percent through them, roughly, to date. So there is a 
lot that has to happen this year to deliver on time. We have a 
great team working it.
    You asked earlier what is the government doing to help. We 
are trying to make every flexibility available, so that Boeing, 
which is being a great partner for us, they are committed to 
the program--we are trying to give them the flexibility to 
prioritize task in the program, so that they can tackle the 
biggest risk as early as possible. So risk burn-down-driven 
program. So that is something that we can do on the government 
side, and we are doing.
    And there will be more to follow on this program. So I 
expect to stay in close connection with this committee on how 
we are doing.
    Mr. Courtney. Great, thank you. I yield back.
    Mr. Wittman. Thank you, Mr. Courtney. We will now go to Mr. 
Byrne.
    Mr. Byrne. Thank you, Mr. Chairman. This is a question for 
the two generals.
    The Nuclear Posture Review states the necessity of 
maintaining the nuclear triad, and our bomber fleet remains a 
key element of that plan.
    In this year's Presidential budget request, the Air Force 
outlined its plan that calls for the retention of the B-52 and 
eventual retirement of the B-1 and B-2 bombers.
    Can you both explain the logic associated with B-1 and B-2 
retirement, and what factors led the Air Force to the decision 
to retain the service's oldest bomber, the B-52?
    General Harris. Yes, sir. If you don't mind, I will start 
with that.
    Mr. Byrne. Sure.
    General Harris. So thank you, that is a great question. And 
we actually get that one a lot, based on the age of the 
platform.
    But we based that decision on independent studies, and then 
multiple factors when it came to why we got to the selection of 
keeping the B-52. Those factors include our maintenance and our 
sustainment capabilities and the metrics that are associated 
with those, such as aircraft availability, downtime for 
maintenance, or downtime for supply, and the cost in terms of 
maintenance man-hours per flight hour. And the B-52 was the 
leading candidate for the keeping of the current fleet that we 
have.
    So as we look forward into B-21 production and deliveries, 
you will see a phase-out between the B-1s and the B-2s to 
associate us keeping roughly 175 to 170-ish type bombers, 
between the B-21 and the B-52.
    General Nowland. Yes, if I may add?
    Mr. Byrne. Yes.
    General Nowland. It is a great question. The future of the 
Air Force is a combination of penetrating, non-penetrating, 
manned, unmanned, stand-off, penetrate, and drop from above. So 
the combination of the strategy of a B-52 with stand-off 
munitions and its capacity with a B-21 for the future gives us 
the warfighting punch that we think we will need, as we look to 
the future against China and Russia and the threats that we 
need to prepare for.
    Mr. Byrne. Well, let me just follow up on that for a 
second. I know all of us are re-evaluating things in light of 
changes in what we have seen as the posture by both China and 
Russia. And I don't want you to go into anything that is 
classified, but was that in part what was driving your 
decision?
    General Harris. It was. That was definitely a part of it. 
And we allowed the National Defense Strategy that was recently 
published to help drive that.
    Mr. Byrne. I see that, and I appreciate your explanation. 
That does remove just a source of curiosity for me to 
understand it.
    Dr. Roper, just a quick comment to you. It was 10 years ago 
last month that the tanker project was originally awarded to 
another company other than Boeing. We have American aircraft 
that are being refueled by that company's tankers. We are 10 
years later, and the tanker we awarded to Boeing can't refuel 
our tankers yet.
    So I have concerns that this is going to continue to be a 
problem, that the assurances we have gotten before about ``No, 
it is going to be this time, no, it is going to be this time'' 
are just going to continue. Relieve me of my concerns, please, 
sir.
    Dr. Roper. Congressman, I wanted to start by saying we 
really appreciate the acquisition reforms that this committee 
and others in Congress have championed, and I think they will 
go a long way to help get control of acquisition.
    Just to give you a little bit of insight to what running a 
program would be like in the past is you would have the rein of 
the horse, and then there would be 100 other people in the 
Pentagon holding the other. And the idea that you could somehow 
drive that horse straight to destination is just really hard to 
imagine.
    By giving authority back to the Air Force, you really are 
able to hold people accountable again, look at me and say why 
is this program not on track.
    Now, I wish we had a time machine and could go back in time 
and fix some of the program issues that we have had. And we are 
going to do our very best to fix it forward and play the ball 
as it lies. But I think on the new programs that we are 
starting to use these authorities on, we are going to see a lot 
more prototyping, which is a big thing for me. Don't let risks 
snowball. Go out and start building early. Put your finger on 
hard-to-do things.
    The Air Force has a great history of doing that. Back 
during its experimental plane heyday, built a lot of advanced 
technology, and it had the discipline to only put one new hard 
thing in each new plane. And if you couldn't do it, then you 
needed to keep focusing on that thing because that is where 
your risk was.
    So I think that is--that discipline is going to come back, 
because you have given us the authority to implement it again, 
that scale.
    Mr. Byrne. Well, I appreciate your comments. I certainly 
look forward--you can't go back in a time machine, I get that. 
But you can learn from your past mistakes and make sure you 
don't replicate them in the future.
    And with that, Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Mr. Byrne. We will now go to Ms. 
Bordallo. And after Ms. Bordallo finishes with her line of 
questioning, we will adjourn for votes and then return.
    Ms. Bordallo. Well, thank you, Mr. Chairman. I only have 
one question, so I guess I will meet the deadline.
    [Laughter.]
    Ms. Bordallo. Gentlemen, thank you all for being here 
today, and thank you for your service.
    We have been told that the current U.S. TRANSCOM [United 
States Transportation Command] requirements for air refueling 
tankers is 567 aircraft. But the service is only fielding 455 
tankers to meet the warfighting requirements.
    So, in lieu of the results of the command's mobility 
capabilities requirement study, can one of you speak to the 
service's plan to balance KC-46 production with the retirement 
of the KC-135s to meet mission requirements? And furthermore, 
how do you intend to work through the basing requirements for a 
larger fleet?
    General Harris. Yes, ma'am. I would be happy to start with 
that and see if my colleagues have more to add. So thank you.
    We are looking at the study for the KC-46 and what it 
brings to us, and we have determined that the best platform for 
us to retire is actually the KC-10. And our--you are correct, 
we do have 455 of the tankers in the fleet now, and our intent 
is to grow to 479. So you will see that, as the KC-46s that Dr. 
Roper has been talking about add to our fleet, we will stand 
down KC-10s, but we will actually grow our 135s.
    So as we replace the 135s initially, they will move to 
other units, and we will preserve those tankers to actually 
grow our fleet, adding 25 to that capability.
    When it comes to TRANSCOM and the requirements, we look at 
this fleet as one of the things that separates us from other 
countries' air forces, and it allows us to be that 
expeditionary force and take the fight to our adversaries. And 
they are extremely important to what we do, but we are 
comfortable with the moderate-level risk, once we grow that 479 
with a mix of KC-46As and 135Rs, that we will have the fleet we 
need to meet the combatant commanders' intent.
    Ms. Bordallo. Any other----
    General Nowland. Congresswoman Bordallo, hafa adai.
    Ms. Bordallo. Hafa adai.
    General Nowland. It is a great question, particularly from 
Guam. As you know, power projection, our tankers, are key 
towards this. We give three million pounds of gas a day right 
now in the Central Command area of responsibility.
    The key to it, though, is managing the requirements, 
working the--what we call the schedule. And we have actually 
made some advancements with that. DIUx [Defense Innovation 
Unit-Experimental] created a tanker tool for us that allows us 
to schedule a little bit more efficiently.
    And then the other reality, ma'am, is manning those 
airplanes. You can have all those airplanes, but because of the 
nature of our fleet, if we were going to have to use all of 
those--which they surge to do, but over a sustained period of 
time--would probably require--would require a partial 
mobilization to be able to do all of that at one time.
    Ms. Bordallo. Thank you, and hafa adai to you, too. And I 
yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo. We will recess for 
the votes.
    I would ask members, after the third vote, to return back 
here, and we will resume the line of questioning.
    [Recess.]
    Mr. Wittman. We are going to reconvene and continue our 
line of questioning. And we will go to Mr. Norcross.
    Mr. Norcross. Thank you, Chairman. I want to follow up on 
the discussion that two or three other members have already 
talked about, and that is our tankers.
    The original date that we expected the delivery to start, 
when this began, what year?
    Dr. Roper. So, Congressman, I will take that one for the 
record. I know we are behind, but I want to get you the precise 
date.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mr. Norcross. Give me a year.
    Dr. Roper. We are years behind.
    Mr. Norcross. Give me a decade?
    Dr. Roper. I mean it is one of the many programs where we 
have been delayed, sir. So yes, it is years of time. And I will 
get you the precise number for the record, sir.
    Mr. Norcross. So you went through a discussion on how we 
used to embrace change, but at some point you made a decision 
to go with a program the way it is, no major changes.
    As I understand it, with the new tanker, the boom camera 
system seems to be top of the issue board. Would you agree to 
that?
    Dr. Roper. Yes, sir. We are having both issues with the 
centerline drogue, as well as the remote visual system, which 
is what allows the operator to determine if the drogue or the 
boom is working. If you can't see, then you can't control it 
properly. So that is correct, sir.
    Mr. Norcross. When was that spec changed to go from the 
original camera system?
    Dr. Roper. So, sir, the requirements, to my knowledge, the 
requirements have not changed. As the E&D [engineering and 
design] contract with Boeing was let, it had requirements. 
There are 738, to my knowledge, that have to be met. They 
include all aspects of operation, including allowing the 
operator to be able to see appropriately, allowing the drogue 
to be employed appropriately. And so it is the development 
testing that is proving that some of the choices that have been 
made in the program are not meeting those requirements.
    I mentioned a little earlier in testimony, issues and 
programs don't give me concern, per se. Most programs have 
issues. What I am going to be tracking very carefully as I 
start this job is how long does it take issues to be retired. 
If you are designing correctly, if you are doing good 
engineering, you find something, you should be able to fix it 
quickly because you have designed for it.
    And so, these new issues that have appeared, I am tracking 
them. And what I am going to be very focused on is how long do 
they persist. And if they persist for a long time, then that is 
indicative of a problem with the program, sir.
    Mr. Norcross. So when they finally come through the 
delivery date, are you going to have the personnel to fly them, 
maintain them, and the construction done?
    And--because as I go out to two of the bases, they are not 
ready for it.
    General Harris. Sir, I will take that one. We are not 
starting this as a new fleet. So the KC-46, as it comes on, 
will replace current squadrons. So the initial ones going to 
the trainers, once we are done with the testing of these, they 
will start to work their way through probably a normal contract 
type of initial training, and then start to do the--the formal 
training unit themself will pick that up, and then we will work 
through it.
    Because these are all replacements, it will take us a 
while, but they will replace squadrons of KC-10s and KC-135s, 
and we do have those people onboard already. Yes, sir.
    Mr. Norcross. Trained in the KC-46s?
    General Harris. No, sir, they are not--that is what I am 
saying. When we get the first one to start that training, we 
will start with our formal training unit, our schoolhouse.
    Mr. Norcross. Right.
    General Harris. They will build up, and then they will 
become the instructors with an assist from the contract team, 
as it is written----
    Mr. Norcross. So you have adjusted your schedule--the 
construction of the new facilities and the personnel to 
reflect----
    General Harris. We are staying on time with those, because 
if the airplanes come to us we don't want to be late with those 
facilities. So we are continuing to push forward with the 
MILCON [military construction] and the people that will be 
used--or put into the effort.
    Dr. Roper. Congressman, you are right to point out that the 
delivery of the tankers alone impacts a lot of other things. It 
impacts training. It also impacts how long we have to keep the 
KC-10 and the KC-35s flying, right?
    So there are a lot of coupled factors that touch that 
tanker. So it is high priority, and I think, for me, if these 
new deficiencies are not retired quickly, then it is going to 
make me be very concerned about hitting our delivery date this 
year. This is a very critical year for the tanker.
    Mr. Norcross. I agree. I yield back the balance.
    Mr. Wittman. Thank you, Mr. Norcross. We will now go to Mr. 
Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    The Air Force's 2019 budget called for the retention of B-
52s and ultimate retirements of B-1s, B-2s, once the B-21 is in 
base. Can you talk to us about the mechanics for how that 
decision came about, in terms of the retirements of the B-1s 
and B-2s?
    And then have basing decisions been made as to where the B-
21s are going to be based?
    General Harris. Sir, I will start with that, if you don't 
mind. The B-52 was selected based on a lot of factors and an 
independent study done within our Air Force A9 [Studies, 
Analysis and Assessments] team. And those factors looked at the 
maintenance and sustainment metrics of the platforms themself, 
the aircraft availability, the maintenance availability versus 
supply rates, and the B-52 was the winner of that.
    So that was the selection that, when we applied what the 
airplane can do in the near future, when we looked at the B-2, 
the B-1, and the B-52, as paired with the B-21, and then 
applied the National Defense Strategy to this, it was the clear 
winner for us.
    Mr. Conaway. So can you talk to us, though, about you--you 
know, the basing decisions on the B-21? Are you just going to 
simply replace the B-1s, B-2s with B-21s in its place? You 
going to move around the world? What are you going to do with 
them?
    General Harris. Yes, sir. Based on the strategic 
capabilities of the bomber, they are all continental-based. So 
we have them forward-deployed, but for temporary status.
    So I would expect that, if you are flying bombers now, a B-
1 or a B-2, in the future you will probably----
    Mr. Conaway. Say out of Dyess Air Force Base.
    General Harris [continuing]. B-21s, yes, sir.
    Mr. Conaway. Okay.
    General Harris. And that is where the school is for one of 
those platforms.
    Mr. Conaway. Right.
    General Harris. We will probably start there. But we are 
working through the strategic basing decision, and we have not 
released any of those locations. We are just looking at it from 
those are the locations currently flying bombers, have the 
facilities to support bombers.
    Mr. Conaway. All right, thank you, yield back.
    General Harris. Yes, sir.
    Mr. Wittman. Thank you, Mr. Conaway.
    I want to get the panelists' perspective on both the new 
national defense study and then some of the comments made by 
General McDew. If you combine those two together, it appears as 
though the Air Force is looking to increase its airlift 
capacity and its tanking capacity over that which you have 
today. So, additional aircraft over which you have today.
    And I know the mobility capability requirements study is 
going to come out this fall to look at what the requirement 
would be into the future, and what you need for the entire 
demand signal that is going to come your way.
    In looking at where that is, it appears to me as though the 
place where you will find yourself is increased airlift and 
tanker force structure. That is, a larger number of aircraft.
    So the question then becomes, with the projected numbers of 
tankers that you will build, and lift capacity that you will 
build, it seems like your number--if you completely retire 
existing aircraft, it seems like your number is going to be 
lower, rather than higher.
    So how do you reconcile where you end up with total force 
structure for lift and for tanker based on where the build ends 
up, and completely retiring both KC-10, KC-135 aircraft, as 
well as transitioning to the--both the tactical lift we have in 
C-130s, but also C-17 line is done, you know, we have some 
demand going on out there, we have some C-5s that are at the 
boneyard.
    So the question then becomes, with the demand signal 
increasing, and with the era of great power competition, give 
us your perspective on what appears to be a demand signal for 
increased lift and tanker force structure.
    General Harris. Yes, sir. That is a very good question 
that--it will take a couple of us to answer that, I suspect. If 
you don't mind----
    Mr. Wittman. Sure.
    General Harris [continuing]. We will do that. Let me start 
with the tankers.
    We are not retiring all of the KC-135s. When we have the 
complete fleet of KC-46As, we will have retired all of the KC-
10s and some of the 135s. So we will have a fleet of 300 135s 
and 179 KC-46s. That gets us to our fleet of 479, as compared 
to today 455. So that tanker fleet is growing.
    To help us with that, we are also reducing the 
requirements. Because as we go through and modernize the B-52, 
the new engines will actually require a significant--the 
improvements we are getting out of the new technology will 
significantly reduce the fuel required for that platform to 
fly. So while we grow the platforms and the tankers, we will 
also decrease the requirement, which helps us solve some of 
those issues.
    From a bomber perspective, retiring the B-1 and the--
actually, you didn't talk bombers, you--STRAT [strategic] lift, 
I am sorry, so C-5s. To help us with our C-5 lift, we had--
initially, for budget reasons, we had moved 8 C-5s into BAI 
[backup-aircraft inventory] status, which means we still had 
the airplanes flyable on the flight line, but we didn't have 
the ops maintenance and the money behind them to fly them. We 
just rotated them through.
    We are pulling two out last year, two again this year with 
our fiscal year 2019 proposal, and we intend to do two each of 
the next 2 years--basically, have an additional squadron push 
back out into the force to have additional C-5s, which is one 
of our best airlifters.
    Mr. Wittman. Yes.
    General Harris. We will marry that up with the C-17 fleet--
we have 222 aircraft--and then a smaller C-130 fleet, which 
should meet our TAC [tactical] lift.
    Mr. Wittman. Yes.
    General Harris. So, at this point, when we look at what we 
are doing with our strategic lift, we are fairly comfortable 
with where we are headed on the operations plan, but we do have 
a study that is--the mobility capabilities and requirements 
study is ongoing and we will address through that, if we need 
to, when it completes here in several months.
    Mr. Wittman. Got it.
    General.
    General Nowland. Sir, if I may add, you know, as the 
operations, we are always looking at our plans. And you are 
absolutely correct, there is always stress on our mobility and 
our tanker fleet.
    Mr. Wittman. Yes.
    General Nowland. Because as we look at the National Defense 
Strategy, everybody wants it quicker and sooner and more rapid, 
so concepts of operation are super important, as we think about 
how we mix the future force mix. And as General Harris said, 
modernization reduces some, but then you are still going to get 
other people that want to fill in with other capability.
    So, working with TRANSCOM and General Everhart, who is our 
Air Mobility Command commander, is really looking at this hard, 
because command and controlling this and scheduling it really 
becomes the secret sauce of how you do it, because there is 
going to be a lot of friction as you think about the distances 
that we have to cover in a new National Defense Strategy [NDS].
    Mr. Wittman. It certainly seems like the demand signal is 
going to continue to increase, especially based on NDS. Give me 
this perspective: The KC-10As are scheduled--a group of them 
are scheduled for retirement in fiscal year 2019. As KC-46A 
moves to the right, it seems like you are going to have a gap 
there.
    So tell me what the scheduling happens if KC-46A gets 
pushed to the right, and what the scheduling is for retirement 
of KC-10s.
    General Harris. Sir, we had that study ongoing, but I fully 
expect the requirements levied on us by the TRANSCOM commander 
will force us to readdress our retirement schedule. If we are 
late on delivery, I would expect we would have a similar delay 
in retirement of the aircraft, so that we stay at our min 
[minimum] that we have now, but we intend to grow the fleet, 
rather than actually get smaller in that fleet.
    Mr. Wittman. And in your plan, too, do you address the 
issue of attrition? We all talk about our fighting platforms in 
the air and on the sea, operating in contested environments. 
And the days of us being able to go in and gain air superiority 
in a day or two and then fly unimpeded in that airspace is a 
thing of the past.
    So if our lift is going to be operating in contested 
airspace, if our tankers are going to be operating in contested 
airspace, being able to put it--be put at risk at long 
distances, how do you factor for attrition, and how do you 
factor for support for those aircraft? Because, again, that is 
the critical link to be able to fight your way in.
    So give me that perspective about how the plan considers 
that.
    General Harris. So, expect each one of us to bounce through 
on this question, also.
    Mr. Wittman. Yes, please.
    General Harris. But certainly, Chairman, there is risk 
associated with this. We have BAI, or battlefield 
interdiction--or attrition aircraft within each of the 
squadrons.
    Mr. Wittman. Okay.
    General Harris. It is normally about a 10 percent level. So 
we have some initially.
    As you are aware, in our boneyard and different types of 
storage, we also have C-5s. We have other aircraft that are 
there. Part of our concern for our strategic lifters, other 
than what we have in the boneyard, we don't have an open line. 
And we hear that regularly as a concern: You are not buying any 
cargo aircraft right now.
    Well, to be honest, in a way, we are. The KC-46 is a dual-
role aircraft. We intend to use them fully as a tanker, but 
with a dual-role capability. They do bring to us a capability 
to have strict cargo, if necessary. And that is an open line. 
So that is one of the things that we can look at.
    And we are also working on the fighter--I am sorry, the 
next-generation air dominance portion to be able to make sure 
that we can operate and survive in that contested airspace, as 
you talked about, before we bring those aircraft forward.
    Mr. Wittman. Good, very good. Thank you.
    Dr. Roper. Congressman, I think the point about having 
enough aircraft available is extremely important. And as a 
mathematician coming into this job, the number that we so often 
talk about are the number of aircraft. But the one that 
concerns me the most are the availability.
    Mr. Wittman. Yes.
    Dr. Roper. So I am starting to read aircraft availability 
reports. And, you know, it is shocking to see some of the 
issues that we are having, in getting planes up in the air.
    So the questions I have been asking as an acquisition 
person is where is our investment in research and development 
to go after sustainment and maintenance, where we are spending 
most of our budget. I think it is an area that we can improve 
on in the Air Force. We are spending most of our money there. 
There are many commercial practices that could be applied that 
we should be applying.
    Mr. Wittman. Yes.
    Mr. Roper. I brought a 3D printed part from a C-5 today, 
which shuts off a valve on the outside of the plane. I am 
seeing little efforts like this across the Air Force, but I 
don't see the enterprise effort. And so that is one of the 
areas that I am going to be interested to work with Air Force 
leadership and go after that part of the aircraft availability 
equation.
    Mr. Wittman. Yes, I think that is key.
    Lieutenant General Nowland.
    General Nowland. Back to concepts of operation, one of the 
advantages of the KC-46, our chief says the future battlefield 
we need to be networked, we need to share, and we need to 
learn.
    So as we look at our fleet, some of the capabilities that 
we will bring on a KC-46 will enhance the situational awareness 
of the overall joint force commander, which will then allow us 
to adjust our concept a little bit so that when we get into 
that contested environment we are sharing greater information 
to improve the survivability and the resiliency of our 
operation.
    Mr. Wittman. Sure. I think those are all important points 
as we look at, you know, how we operate in the future in both a 
strategically challenging environment, but also a resource-
challenged environment, to do all that we can there.
    I think the sustainability idea, too, and looking at life-
cycle costs, looking at best value in purchasing--not low 
price, technically acceptable--and, as you know, we made a big 
change last year in how acquisition takes place with that, and 
really minimizing the classes where we use LPTA [lowest price 
technically acceptable].
    Listen, LPTA may be great for buying jet fuel and toilet 
paper, but for advanced systems in service, it is probably not 
the best way to go about it. So I appreciate you all doing 
that, because there are certainly some models out there--the 
airlines are tremendously effective in sustaining operations 
and making sure that they don't miss a minute of avoidable 
flight time, because when that aircraft is on the ground it is 
not generating revenue. And if we look at it the same way in 
seeing if our aircraft aren't generating sortie capability or 
mission capability, then we are missing out on what we have 
invested in. So I think that is the right way to look at it.
    Gentlemen, thank you. We will now go to Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. And gentlemen, 
thank you very much for the testimony thus far. I want to 
follow up on some of this KC-10 issues. And specifically, 
this--the chairman was talking about attrition. And I think you 
said BAI, which was a new term for me. But I think I understand 
what it is.
    The Air Force intends to recapitalize the KC-10 fleet as 
part of its legacy tanker recapitalization strategy, with 
retirements beginning in 2019. Representing Travis Air Force 
Base, I have a long-time interest in this issue.
    Can you explain what that sentence means?
    General Harris. Yes, sir. Congressman, had the KC-46A been 
delivering on time, we would have retired KC-10s just in time 
to receive the KC-46s at that base from the selection that has 
been made. Now that we are seeing the delays in those 
deliveries, we fully expect to actually slow down our 
retirement plans. We are going through a study to make sure 
that it is going to tell us--but 455 tankers with the throw 
weight that they can get, number of booms downrange, along with 
the number of gas, KC-10 is one of our best airplanes for that. 
And we intend to make sure that we are not just retiring it, 
but we are replacing it with KC-46As.
    Mr. Garamendi. Given your testimony, given that it is 
public, I expect I am going to get a question from Fairfield, 
California. Has the beddown of the 46 timing changed at all?
    General Harris. The timing beddown has changed only based 
on the delivery, sir. So if we don't have the aircraft to bed 
them down, then yes, it will have changed. But we are still 
working through the actual timing, as it slips.
    Mr. Garamendi. I agree with one thing that--with all that 
you are saying. But obviously, concerns about the KC-46 and its 
availability, or its arrival.
    The KC-10 is a spectacular airplane. And it seems as though 
the recapitalization means that this airplane is going to be 
around somewhere, not in a boneyard, but somewhere probably 
waiting to be deployed. Is that a strategy that is going to 
carry forward for the--assuming the KC-46 comes on, KC-10s go 
somewhere?
    General Harris. No, sir. We do intend to retire the KC-10. 
We are one of the--there is only two other organizations in the 
world still flying that aircraft, and the parts availability 
are extremely hard to get. And the operating cost and the 
maintenance cost are not in our best interest. So----
    Mr. Garamendi. Dr. Roper has his additive machine there.
    [Laughter.]
    General Harris. Yes, sir. He does.
    Mr. Garamendi. It might be the only way. Okay. I appreciate 
that.
    What is the range of the B-21?
    Dr. Roper. Congressman, we would be happy to discuss the B-
21 with you in a closed session. But for any of its performance 
characteristics, they are just not things we can discuss in an 
open hearing.
    Mr. Garamendi. Fair enough. I probably have other 
questions, but I will yield back at this point.
    Mr. Wittman. Thank you, Mr. Garamendi. We will now go to 
Mrs. Hartzler.
    Mrs. Hartzler. Good afternoon, gentlemen. It is good to see 
you again. As you know, I have the privilege of representing 
the Whiteman Air Force Base, home of the B-2 stealth bomber, 
which is the only bomber with the A2/AD [anti-access/area 
denial] capability, as well as the most flexible leg in our 
nuclear triad.
    And the Air Force's fiscal year 2019 budget proposal 
eliminated funding for the B-2 Advanced Extremely High 
Frequency [AEHF] satellite communications program, which would 
have provided the B-2 two-way, high-speed survivable 
communications during A2/AD operations. And while I fully 
support the recapitalization of the bomber fleet with the B-21 
bomber, the B-2 must also continue to be modernized to mitigate 
capability and capacity gaps in the near to mid-term.
    So, in light of the termination of the B-2 AEHF program, 
what is the Air Force doing to ensure communications with the 
B-2 remain viable in A2/AD environments?
    General Harris. Ma'am, if you don't mind, I will start with 
that. Great question, and clearly you are tied in with your 
community.
    The B-2 is an awesome aircraft that is capable of doing 
that penetration support. This particular radio is still a long 
way away, and our concern is, had we continued funding it the 
way it was, it would not have delivered until 2026 to 2028 
timeframe with our bomber vector that we were planning to 
retire it just a few years later.
    In accordance with the National Defense Strategy that was 
just published, this is one of the areas that we looked to take 
some risk on communications, because we will continue to modify 
the aircraft to make sure that it has the survivability it 
needs to be fully viable through that period. And we do have 
survivable radio connectivity using different system 
appropriate on that airplane that we didn't think a second one 
that delivered so late in its life span would be the right 
effect for us.
    Mrs. Hartzler. And that was going to be my follow-up 
question. Can you expound on that a little bit?
    So you have an alternative secure communication solution to 
replace that to help it go ahead and carry out to the end of 
its life?
    General Harris. Yes, ma'am. This--the radio you are talking 
about is the secure EHF [extremely high frequency]. That would 
have been the second one to deliver. The first one we are 
looking at is an LF/VLF [low frequency/very low frequency] 
system that will deliver before, and actually give the 
capability that we have been missing for a while.
    So when we looked at it from a risk perspective, having at 
least one assured com in there so that we can have the 
communications required for this in a nuclear role that is 
survivable in that type of an environment we think will be 
sufficient for the life span of that aircraft.
    Mrs. Hartzler. And when will this LF/VLF be added?
    Dr. Roper. So, ma'am, I will get you a firm date on the 
fielding date. The first money for it comes in place in our 
fiscal year 2019 budget.
    [The information referred to can be found in the Appendix 
on page 53.]
    Dr. Roper. And just to speak a little more broadly about B-
2 and the 2019 budget, it is an important system. It is going 
to be an important system for us until the B-21 fields. And so 
the big workhorse in our budget regarding the B-2 is the 
defense management system, which is a large program about $1.3 
billion over the FYDP, and it is meant to ensure that the B-2 
maintains its ability to go into the most denied spaces of the 
world and be able to do its power projection mission.
    So it is not neglected, we are just focusing on the things 
that we think are most relevant in the interim period between 
now and the B-21 fielding.
    Mrs. Hartzler. Yes, that is good to know. I was pleased to 
see the new start in the fiscal year 2019 proposal for the 
radar-aided targeting system, or RATS, software upgrade. What 
is the timeline for the RATS upgrade? And when can we expect to 
see it fielded in the B-2?
    Dr. Roper. So, ma'am, the RATS has about $43 million in our 
fiscal year 2019 budget. Again, I will get you the firm date 
for the record, but I believe it is a 2- or 3-year program. But 
expect a firm date from me on that. It is an important part of 
the modernization effort to make sure the B-2 maintains its 
penetration capabilities, communication capabilities, and 
sensing capabilities into the future.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mrs. Hartzler. Yes, very, very important aircraft. I very 
much appreciate your acknowledgment of that and the steps that 
you are taking to keep it viable as long as possible, because 
our Nation may need it at any point.
    General Nowland, when you testified before the Readiness 
Subcommittee I asked a question about the bomber vector, and 
you assured me that the Air Force is working to avoid a bomber 
dip, or a capability gap with the fleet. Can you discuss more 
about the Air Force's decision to re-engine the B-52, and what 
would happen to the overall bomber fleet if we do not move 
forward with the plans to re-engine the aircraft?
    General Nowland. Ma'am, a fantastic question. The bombers 
are so important towards our overall concept of operations of 
how we support the joint fight. The B-52 re-engine is really 
good news for the Air Force, in my opinion.
    It is going to save us fuel, it is going to give us 
increased capability with the sense of that extended range that 
you are going to get by the fuel savings. And it is going to 
give us more reliability, because the engines, as we move--the 
old engines, obviously, are hard to maintain, so hopefully it 
will reduce our amount of maintenance, will increase our 
mission capable rate, which will get us more sorties as we move 
forward.
    So it is a really positive story, and I think Dr. Roper has 
got a great strategy on how we will prototype, and I will pass 
it over to Dr. Roper.
    Dr. Roper. So, Congresswoman, it is--the B-52 is a great 
example of being able to leverage work in commercial industry 
to help us in the military. The airline industry is booming 
right now. Engines are a big focus. Fuel efficiency is a big 
focus in the commercial world. And, of course, we want to put 
back in all of the capability that the current B-52 has.
    But as the general has clearly articulated, there is a 
chance to do something big on fuel savings, which aren't just 
saving money for the Air Force, it is operational flexibility, 
it is extended range.
    And I would also like to mention, given that we are talking 
tankers, it is a lot less time on tanking emissions. So 
benefits across the board.
    The authorities that Congress has given us gives us a lot 
more opportunities to prototype things before we commit to the 
full program of record. I think B-52 re-engining is a great 
example of an opportunity to get out, to try something, and to 
fly before we buy it. And if we are buying it having 
demonstrated those fuel efficiencies, then we know we are 
making a smart decision for the future.
    Mrs. Hartzler. Sounds great. Thank you. I yield back.
    Mr. Wittman. Thank you, Mrs. Hartzler.
    Mr. Garamendi, additional questions?
    Mr. Garamendi. To follow up on the B-52, are we developing 
a new engine or an engine that exists somewhere out there?
    Dr. Roper. So, sir, we have all options on the table. But 
my preferred option, moving into our acquisition strategy, is 
to leverage commercial. That was a big thrust for me in my 
previous job. If it is available in commercial industry, it has 
got their research and development in it, then we should begin 
by trying to leverage what they have done, as opposed to 
rebuild something ourselves.
    Mr. Garamendi. And where are you in achieving your goal?
    Dr. Roper. So, sir, this will be an important year. We are 
still pre-milestone B in the re-engining, so this is the year 
that we should move into a formal acquisition strategy. I am 
working with the B-52 re-engining team, and I expect to have 
them on their acquisition path within the next quarter of this 
year.
    Mr. Garamendi. I certainly agree with your goal of using a 
commercially available engine, if it is at all possible.
    Dr. Roper. Yes, sir. I just consider that just ground-rule 
acquisition practice, that if you can buy it from industry and 
there is not a national security reason why you can't, then you 
should.
    Mr. Garamendi. And when will you know?
    Dr. Roper. So, sir, the team is going through different 
engine options as we look through, you know, options for 
potential source selection. And so there will be more to follow 
on that. But there is a little more work to do to make sure 
that we do the right decision and right choice.
    Mr. Garamendi. I asked you a four-letter question. When?
    Dr. Roper. So, sir, I will come back, I will take that for 
the record. But I did my first review with them a few weeks 
ago. And so I am expecting them to come back with a recommended 
acquisition plan within the next few months. But I will get you 
a specific date.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mr. Garamendi. And the approximate cost of re-engining?
    Dr. Roper. So, sir, in the fiscal year 2019 budget I 
believe we have $1.56 billion laid in to begin this program. 
That is to get it started. I believe, over the whole life of 
the program, it is in the $7 or $8 billion ballpark.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mr. Garamendi. Thank you.
    Mr. Wittman. Thank you, Mr. Garamendi. Gentlemen, I would 
like to explore a couple of other areas.
    First is the FAA's NextGen air traffic management systems 
and the requirements that it places upon the Air Force. The 
concern that comes up in my mind is that it is a locational 
device, so that air traffic controllers can determine the place 
of the aircraft, aside from what they get as far as a radar 
signal. So it divulges our location.
    So if we are looking at tactical aircraft, whether they are 
fighter aircraft or even strategic aircraft like bombers, and 
having to divulge that location, to me, that creates a 
situation that is, I think, a potential problem for the Air 
Force.
    So let me ask. Is it the Air Force's intention to comply 
with the NextGen requirements by 2020? And if so, how do you 
mitigate for what I believe is an increased vulnerability that 
is placed on you by now-locational information that is now 
transmitted from the aircraft out?
    General Nowland. Sir, that is a question right up the A3's 
[Air Staff, Operations, Plans and Requirements] alley, so I 
would love to----
    Mr. Wittman. Yes.
    General Nowland. I have my vice, my Senior Executive 
Service, is Mr. Wayne Schatz. And he is meeting with the FAA 
continually about that. And he sits with the FAA on two 
different boards to talk about this issue. We, like you, have 
similar concerns. So the answer is we are working a memorandum 
of agreement.
    By the way, thank you for the question and pointing out the 
GAO [Government Accountability Office] report, because I had 
not seen it. So the report said it would be due in February. It 
is already March. So I have queried. We are close to getting 
that, which will work an accommodation between us and the FAA 
for our tactical airplanes.
    Our large airplanes, where we can comply, we will 
absolutely comply to the max [maximum] extent practical. But we 
share the same concerns that you have.
    Think about an Operation Noble Eagle mission where you have 
F-16s that are capping over a city to help protect the 
President or protect somebody. If somebody could just go on a--
and find out where they were, if you know where they are then 
you know how to avoid them, right? So we share your concerns, 
and we are working with the FAA from a national defense and 
security strategy--North American Air Command is also involved 
about this, Department of Homeland Security, so we are all 
working together towards that accommodation.
    The other part that we think is super important is there is 
cyber vulnerabilities, and we are working with the FAA to talk 
about how we mitigate those and how we ensure that we put a 
cyber--what I would like to call a defensive counter-air bubble 
of protection around our system, so that we don't introduce 
vulnerabilities into our systems.
    Mr. Wittman. I would agree. I think there is--well, I think 
it is both a tactical and strategic question the Air Force has 
to deal with. I understand the air safety elements of that, but 
there is a national defense dimension to our fighter aircraft 
that we have to keep in mind.
    It seems like to me the FAA would be willing to provide 
some type of exception or exemption for those aircraft to make 
sure that you can maintain that tactical superiority. And, you 
know, why would you want to provide somebody with a very simple 
device to pick up a signal that is fairly easy to pick up, that 
is going to be picked up by an air traffic control center, to 
give away aircraft location? I couldn't agree with you more.
    To me--listen, I understand the air safety element of it. 
But I also understand too there is a much larger mission 
objective for those fighter aircraft. And hopefully the FAA 
will be mindful of your greater mission.
    And listen, I understand their mission of air safety, but 
your mission is national security, which, to me, provides, 
hopefully then, food for thought on what they can do to work 
with you.
    General Nowland. Mr. Chairman, I think we have a great 
relationship with the FAA and the whole interagency--I think 
this is a really good-news story for our government, because we 
are working together, and they do recognize we have symbiotic 
needs here, to be perfectly honest.
    Because what we have also discovered, your air data system 
broadcast is subject to GPS [Global Positioning System], and 
GPS can be jammed. So you can create problems within that 
system that they are recognizing also.
    And then, finally, the system is based upon everybody who 
wants to be part of the system. There is a recognition that you 
have non-cooperative people out there who want to do something 
for a myriad of different reasons. And from national defense, 
from homeland security, from just law enforcement, we need that 
capability. So we are working together as a team to come up 
with a solution set which meets the timelines.
    Mr. Wittman. That is great. I think that is important for 
everybody to understand, you know, how to prioritize those 
elements of what your mission is and the FAA's mission. So I 
appreciate that.
    I wanted to ask a question about--go back to airlift 
capacity. As I talked about earlier, we understand from 
TRANSCOM the demand signal that they see, not only now, but in 
the future, the demand from the combatant commanders. We know 
the C-17 line is done, so we are not going to build any more of 
those aircraft unless we retool and ramp back up, which is not 
likely.
    But we do have 25 C-5s, as I said, in the boneyard. Would 
it make sense to bring those aircraft back? To me, having those 
25 aircraft back into operation provides a tremendous amount of 
lift capability in our air platforms. And, of course, we are 
talking about the sealift side, too. But specifically to you 
all we are looking at the full suite of lift. And it seems like 
those C-5s, those 25 sitting in the boneyard, is maybe an 
opportunity. So----
    General Harris. So, Chairman, that is a great question. And 
continuing on that line of thought, on our past studies, when 
we looked at this based--before we had our National Defense 
Strategy that aligned to us--to a new effort and structure, we 
did not need those. We were comfortable with holding those 
where they were at so that we need--if we needed them, we would 
have access to them.
    As the ongoing mobility capabilities and requirements study 
completes, we will use that to inform, with the National 
Defense Strategy and the plans that we have sat in front of us 
with, the strategic alignment of our high-end capacity against 
our peer adversaries first. If that drives us to say we need to 
have additional airlift, that is one of those places we can go. 
Or do we need to then work with our team and actually open up a 
new strategic lift line? That will be part of that study.
    Mr. Wittman. I think it is critical. As you look at the 
needs identified in our OPLANs [operation plans], and in 
talking with General Dunford about executing those OPLANs, 
wherever they may be, but especially in areas that are a 
distance, to be able to sustain those operations, the key is 
lift. And as you know, the--you know, the first 2 to 3 weeks, 
you know, we surge a lot there. We can do that. But the key is 
sustaining those operations.
    And the limiting factor that elongates the timeframe for us 
to fully execute those OPLANs, the single logistical roadblock 
to that, is lift, being able to get supplies and folks to the 
fight. And especially at distance, that becomes a bigger and 
bigger issue.
    So I think, you know, as we look at the NDS--and I do agree 
that we are in the age of great power competition--you know, 
having that capability is going to be key. So I appreciate you 
all looking at that and really seriously studying, you know, 
what we can do with those particular aircraft.
    Mr. Garamendi.
    Mr. Garamendi. Very useful line of questioning. Those 25 C-
5s that are in the boneyard, what does it take and how long 
does it take to bring them back up?
    General Harris. That is a great question. It is different 
for each aircraft. And we have different types of storage. So 
type 1000 is our most restrictive storage, fastest to return to 
fly. And aircraft in there, we can generally turn them in a 
couple of months. But it is one or two at a time. Our team that 
does that is not sufficient in size to have that effort, based 
on what we are doing in day-to-day operations, their caretaker 
status.
    If we run into an attrition event, we would be able to put 
more manpower after that to turn those quicker. But some of 
these larger airplanes, depending on if they are in type 2000 
or type--different types of storage, whether we have been able 
to pull parts off them or not, they take up to 3 years to get 
them out of that storage and build, which is why the study is 
looking at that to say is it better to pull them out, based on 
the storage level that they are at, or is it better to go after 
new equipment.
    And we also haven't talked about our Civil Reserve Air 
Fleet [CRAF]. That is another option for us, that if we have a 
peer type of a competition, there is probably not a whole lot 
of civil aviation going on at the time in that area. And that 
may free up big portions of our fleet to activate them.
    Mr. Wittman. General Harris, another thing to consider, 
too, you know, we all look at CRAF as that flex, or that surge 
capability. But, as I said, the thing that concerns me in 
looking at that--and, listen, those carriers are key, I think 
they can perform a lot of duties, but there is a particular 
mission set that strategic lift aircraft can perform that those 
commercial carriers cannot. And that is operating that 
contested airspace and being able to do that and having systems 
on board to sense, to at least counter what may be a threat to 
that particular aircraft.
    So I would think, within that realm, too--and hopefully the 
study will reflect upon that and understand, you know, if we 
are going to be executing an OPLAN in a contested area of the 
world, especially against one of our adversaries today that 
is--may be one that wants to be near peer, that acts badly, you 
know, we are going to be in a pretty challenging situation.
    So I hope that you all reflect upon that. And like I said, 
aircraft carriers do a great job, and there is a role for them, 
but also for our strategic lift and--there is a time element in 
that, too.
    So, anyway, we look forward to working with you. And just 
as Ranking Member Courtney said, if there are things that we 
can do in this year's NDAA as far as authorization, as far as 
direction that you feel that you need with this, please let us 
know, because we think this is one of those critical tipping 
point times where we are now devoting the resources to 
recapitalizing our Air Force, our Navy, our Marine Corps, and 
our Army. Getting this right is the key.
    And I want to emphasize again that it is an extraordinarily 
competitive environment to compete for resources up here to put 
into the defense budget. So by every measure we have to make 
sure that these programs, which are complex programs--KC-46A, 
B-21, F-35--these have to be delivered on budget and on time. 
Because if we hiccup with these things, folks up here are going 
to say, ``See, I told you,'' you know, ``we put money there, 
they couldn't properly put it in place, they couldn't manage 
the dollars.''
    And then we are back in this scenario where the Congress' 
response is what? To either reduce funding--so, say, build 
fewer, and we all know what happens when you build fewer. What 
happens to unit costs? They go up. We saw that with F-22. Or 
what happens, too, is we say, well, we have a limited number of 
resources, so build them slower. What happens to the economies 
of scale when you build them slower? Unit costs go up.
    So we have got a delta that we have to meet. And I know 
that you all are focused to do this. So delta we have to meet 
on capacity, as well as capability. The capability is within 
the aircraft, the capacity is the number that we build. The 
only way that we get there is to make sure that these programs 
are successful on budget, on time. And if there are things that 
we need to do to enable, or things that we need to do to make 
sure that we are helping, let us know.
    Another thing that we are responsible for is making sure 
that we are watching the watchers, so that is to make sure that 
we are laser-focused on things that are happening with this 
program, both within the Air Force--and I want to give you all 
credit. The management part of that has gone, I think, very 
well on some pretty complex systems. But also making sure we 
place the attention on the primes and the subs in all these 
programs, because everybody has to perform.
    And I will go back to this. There are three elements of a 
successful program. Getting the requirements right and making 
sure the requirements are stable. I think, with all of these 
platforms they are. And stability and certainty in funding, 
that is our job. No more CRs [continuing resolutions], let us 
get the job done here so you will have certainty. And then 
industry has to execute. Any weakness in those three create the 
hiccups in programs, and then we don't have what we need.
    So this is a team effort, and we look forward to working 
with you. And thank you for taking the time to come in today.
    Mr. Garamendi, any other questions?
    Very good. Gentlemen, thanks again. We are adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 14, 2018

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 14, 2018

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 14, 2018

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. NORCROSS

    Dr. Roper. The original Engineering, Manufacturing, and Development 
(EMD) contract for the KC-46 was signed in February 2011. It 
established the requirement for the delivery of 18 aircraft required 
assets available (RAA) in August 2017 (78 months after contract award). 
This requirement drove the expectation (not contractual agreement) that 
the first aircraft would be delivered in calendar year 2016 in order to 
have the 18 aircraft RAA met by August 2017.   [See page 10.]
                                 ______
                                 
           RESPONSES TO QUESTIONS SUBMITTED BY MRS. HARTZLER
    Dr. Roper. Development of the B-2 VLF/LF capability, known as the 
Common Very Low Frequency/Low Frequency (VLF/LF) Receiver Increment 1 
(Common Very Low Frequency Receiver Increment 1), began in fiscal year 
2013 to provide secure, survivable nuclear command, control and 
communication (NC3) capability to the B-2. The production installation 
contract was signed January 16, 2017 and the first production 
installations completed March 14 2018. The final B-2 VLF/LF 
installation is planned for the third quarter of fiscal year 2020.   
[See page 18.]
    Dr. Roper. The software-only B-2 Radar Aided Targeting System 
(RATS) program is a fiscal year 2019 new start effort. The RATS program 
provides improved B-2 navigational handoff accuracy in a GPS-denied 
environment to digital nuclear weapons such as the B61-12. Final 
fielding of the software in the B-2 is expected by the end of fiscal 
year 2021.   [See page 18.]
                                 ______
                                 
           RESPONSES TO QUESTIONS SUBMITTED BY MR. GARAMENDI
    Dr. Roper. The Air Force is exploring a range of options to include 
extending the life of the current engines or purchasing commercial 
engines. We are planning for an approval of the acquisition strategy in 
September 2018 and it will serve as the decision point for engine type 
that will be pursued.   [See page 20.]
    Dr. Roper. The FY19 PB has requested $64.5M for FY19 and $1.56B 
through the FYDP (FY19-23) for RDT&E and Aircraft Procurement Air Force 
(APAF). The cost estimate will be completed after the Acquisition 
Strategy is finalized.   [See page 20.]

                                  <all>
</pre></body></html>
